                                                                                     Office of Inspector General

                                                                                     U.S. Department of Homeland Security
                                                                                     Eastern Region
                                                                                     Office of Emergency Management Oversight
                                                                                     10 Tenth Street, Suite 750
                                                                                     Atlanta, Georgia 30309


                                                                       @ Homeland
                                                                           U,,q      Security
                                                         November 26,2007


MEMORANDUM FOR: 	                      Sidney L. Melton, Director


                                                      e&Q.@&
                                       FEMA Mississippi Transitional R covery Office


FROM: 	                                C. David Kimble, Director              '
                                       Eastern Regional Office

SUBJECT:                               Review of the Hurricane Katrina Activities for
                                         City of Pascagoula, Mississippi
                                       Public Assistance Identification Number: 059-55360-00
                                       FEMA Disaster Number 1604-DR-MS
                                       Report Number DA-08-02

We performed a review of emergency services and debris removal costs associated with Hurricane
Katrina activities for the City of Pascagoula, Mississippi. The objective of the review was to
determine whether the city properly accounted for disaster-related costs and whether such costs were
eligible for funding under FEMA's disaster assistance programs.

As of August 30,2006, the cut-off date of our review, the city had received an award of $7.7 million
from the Mississippi Emergency Management Agency (MEMA), a FEMA grantee, for emergency
protective measures and debris removal activities. The award provided FEMA funding for 17 large
             '
projects. We reviewed costs for I I large projects totaling $3.5 million (see Exhibit).

We performed this review under the authority of the Inspector General Act of 1978, as amended, and
according to Quality Standards for Inspections issued by the President's Council on Integrity and
Efficiency. Our work included a review of the city's disaster grant accounting system and
contracting policies and procedures, a judgmental sample of project expenditures, interviews of city,
grantee, and FEMA personnel, and other procedures considered necessary under the circumstances.




1
    Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
                                      RESULTS OF REVIEW 


The city accounted for FEMA funds on a project-by-project basis according to federal regulations
for large projects. However, the costs claimed under the FEMA projects included $725,237 of
ineligible regular-time labor and excessive contract charges.

A. Ineligible rewlar-time labor. The city's expenditures for emergency work performed included
   $681,486 of ineligible regular-time labor costs paid to a contractor. The costs are ineligible
   because the contractor's workforce was the functional equivalent of the city's permanently
   employed personnel. According to federal regulation (44 CFR fj 206.228(a)(4)), regular and
   straight-time salaries and benefits of a subgrantee's permanently employed personnel are not
   eligible in calculating the costs of emergency work.

   In May 2003, over two years prior to the disaster, the city contracted out the daily operations of
   its public works and utility departments. The contract required the contractor to employ former
   city department employees at pay rates consistent with their previous rates and provide a fringe
   benefits package, including a 401-k retirement plan. The contractor also managed a number of
   city department employees who had in excess of 15 years of service but wished to remain city
   employees until their 25-year requirement for retirement was met. The agreement stipulated that
   the contractor was to use city-owned vehicles and equipment to perform its work and was to
   operate within the guidelines of the city's emergency response plan in the event of a natural
   disaster.

   After the disaster occurred, the contractor performed debris removal and emergency repair work
   as required under its contract and billed the city $1,636,973 in labor costs for these services,
   including $681,486 for regular-time labor charges. The city charged the FEMA projects with the
   total costs of contractor-billed services ($1,636,973). The contract workers were the functional
   equivalent of the city's permanently employed personnel because, as with regular city
   employees, the city determined the contract workers pay rates and fringe benefits and provided
   the workers with city-owned vehicles and equipment. Accordingly, we question the $681,486
   charged to the FEMA projects for the regular-time labor costs billed by the contractor. The
   following table identifies the projects and costs questioned.

                              Project Number        Amount Questioned
                                   7633                $ 29,766
                                   7635                   66,128
                                   7646                   42,980
                                   8113                   78,009
                                   8247                  160,573
                                   9060                   13,413
                                   9709                  290,617
                                   Total                $681,486


    City officials disagreed that the contract workers were the functional equivalent of their
    permanently employed personnel but offered no basis for their position.
   We discussed this finding with FEMA officials at the Biloxi, Mississippi, Transitional Recovery
   Office. They agreed with our conclusion and, prior to the issuance of this report, deobligated the
   $681,486 we questioned. Therefore, we consider this finding resolved and closed.

B. Excessive Contract Charges. The city's expenditures under Project Worksheet 3313 included
   $43,751 of excessive contract charges. The city used a disaster recovery contractor it retained
   prior to the disaster to provide rental generators for powering the city's public works facilities
   and police department after the disaster. Contract terms and conditions required the contractor to
   provide the generators, as needed, based on a fee schedule incorporated into the agreement. Our
   review of contractor invoices paid and claimed by the city showed that the contractor billed the
   city at rates higher than the ones established in the contract. Accordingly, we question $43,751
   in excessive contract charges as follows:

         Generator Size     Number     Total Amount Due       Actual Amount       Amount
          (kilowatts)       Rented     Per Contract Rates         Billed         Questioned
             50 kw            3              $8,629               $11,384          $2,755
            250 kw            6             $25,891               $60,151         $34,260
            350 kw            3             $15,840               $22,576          $6,736
             Total            12            $50,360               $94,111         $43,751


   City officials stated that the costs should be allowed because the contractor could not obtain the
   generators at the price contained in the fee schedule due to the high demand for generators after
   the disaster. However, according to the contract terms, the contractor should have sought prior
   approval for the cost increase through a change order within 48-hours of the unforeseen change,
   which in this particular case was not done.
                                     RECOMMENDATION 


We recommend that the Director, Mississippi Transitional Recovery Office, in coordination with the
grantee, disallow the $43,751 of excessive contract charges.


                  DISCUSSION WITH MANAGEMENT AND FOLLOW-UP

We discussed the results of our review with city, FEMA, and MEMA officials on April 26,2007.
City officials did not agree with our findings. Their comments have been incorporated into the body
of this report.

Please advise me by January 25,2008 of actions taken to implement the recommendation contained
in this report. Should you have any questions, please contact me at (404) 832-6702.
Key contributors to this assignment were Felipe Pubillones, Chris Gamble, and J. Hugh Dixon.



cc: DHS Audit Liaison
    FEMA Audit Liaison 

    Deputy Director, GCRO 

    Chief Financial Director, Gulf Coast Recovery Office 

    Regional Director, FEMA Region IV 

    Public Assistance Office, FEMA Mississippi Transitional Recovery Office 

    Chief of Staff, FEMA Mississippi TRO 

    Mississippi State Coordinating Officer 

    Mississippi Legislative Auditor 

    Director of Finance, Gulf Coast Recovery Office 

                                                          Exhibit


                 City of Pascaaoula
           FEMA Disaster No. 1604-DR-MS 

Schedule of Amount Awarded, Reviewed and Questioned 

               As of August 30,2006 





Total       $3,518,537    1   $3,518,537   1   $725,237
